   U.S. DEPARTMENT OF COMMERCE
             Office of Inspector General




                PUBLIC
               RELEASE


                         OFFICE OF THE
               CHIEF FINANCIAL OFFICER
               AND ASSISTANT SECRETARY
                   FOR ADMINISTRATION

         OMB Bulletin 97-01 Implementation
Requires Additional Efforts by the Department

        Audit Report No. FPD-10876-8-0001 / September 1998




  Office of Audits, Financial and Performance Analysis Division
September 28, 1998


MEMORANDUM TO:               W. Scott Gould
                             Chief Financial Officer and
                              Assistant Secretary for Administration


FROM:                        Johnnie E. Frazier
                             Acting Inspector General

SUBJECT:                     OMB Bulletin 97-01 Implementation Requires Additional Efforts
                             by the Department
                             Final Audit Report No. FPD-10876-8-0001

This is our final report on the Department’s efforts to implement the Office of Management and
Budget (OMB) Bulletin 97-01, Form and Content of Agency Financial Statements. OMB
Bulletin 97-01 defines the form and content of financial statements for the fiscal year (FY)
ending September 30, 1998. Our limited scope audit disclosed that appropriate attention had not
been devoted to implementation of the Bulletin because Department and bureau financial
management resources had been concentrated on the FY 1997 financial statements.

The Deputy Chief Financial Officer (CFO) and Director for Financial Management expressed
general agreement with our recommendations stating that corrective actions will be taken. Since
our June 17, 1998, discussion of audit results with the Director for Financial Management and
Deputy CFO, the Office of Financial Management (OFM) has undertaken a number of actions to
address our concerns and recommendations. This includes the Director for Financial
Management and Deputy CFO’s July 2, 1998 issuance of Department of Commerce
Supplementary Guidance for FY 1998 Financial Statements and the August 24, 1998 issuance of
the memorandum, Documentation of Cost Accounting Activities, Processes, and Procedures that
Relate to the Statement of Net Cost. On September 16, 1998, the Deputy CFO issued
Department of Commerce Second Supplemental Guidance for the FY 1998 Financial Statements.
We are aware that OFM staff have been meeting with the bureaus on OMB Bulletin 97-01 and
have provided commentary on bureau-prepared interim statements. While these activities are
responsive to our recommendations, it is essential that OFM continue to provide bureaus with
assistance as needed.

We would appreciate receiving your audit action plan addressing our recommendations within 60
calendar days, in accordance with Department Administrative Order 213-5. The plan should be
in the format specified in Exhibit 7 of the DAO. Should you have any questions regarding the
preparation of the audit plan, please contact Chris Rose, Director, Financial & Performance
Analysis Division, on (703) 603-0301.
OMB Bulletin 97-01 Implementation Requires                                      Final Audit Report
Additional Efforts by the Department                                               September 1998

INTRODUCTION

Section 304 of the Chief Financial Officers Act of 1990, as amended by the Government
Management Reform Act of 1994, requires an audit be performed of the Department of
Commerce’s consolidated financial statements. The Department’s approach to the consolidated
financial statements is to prepare financial statements for each of the individual bureaus, and then
combine the financial information and elimination entries into consolidated financial statements.
The Department received a disclaimer of opinion on its FY 1997 consolidated financial
statements due to management’s inability to support certain account balances and deficiencies
noted in the Department’s internal controls.

For the FY 1998 financial statements, the Department and its bureaus need to address not only
identified audit deficiencies, but also the complex financial reporting requirements of OMB
Bulletin 97-01. Implementing OMB Bulletin 97-01 will present substantial challenges to the
Department and other federal agencies as it (1) substantially modifies the presentation of
financial information, requiring six statements to be prepared as opposed to the two statements
previously required under OMB Bulletin 94-01, and (2) implements several new standards issued
by the Federal Accounting Standards Advisory Board. A revised OMB Bulletin 97-01 is to be
issued in the near future. We believe that the Statement of Net Cost, which requires the reporting
of costs by responsibility segments and programs, will prove to be the most challenging new
statement. The Statement of Net Cost (1) implements the concepts of full costing and (2) links to
two other new statements, the Statement of Changes in Net Position and the Statement of
Financing.

Department Organization Order 20-27, effective December 14, 1995, assigns OFM the
responsibility to develop and implement policies and procedures for departmental financial
management and accounting requirements, and provide policy guidance and oversight of
departmental financial management personnel, activities, and operations. OFM is also
responsible for planning and coordinating the preparation of annual financial statements.

Recognizing the challenges associated with effective implementation of OMB Bulletin 97-01, we
briefed the Department of Commerce’s CFO Council at its April 22, 1998, meeting. We also
have been providing briefings to senior management at the various bureaus on the requirements
and challenges associated with the implementation of the OMB Bulletin 97-01.

PURPOSE AND SCOPE OF AUDIT

The purpose of this limited scope audit was to assess the Department’s early efforts to comply
with the requirements of OMB Bulletin 97-01. We discussed implementation efforts with the
OFM’s Office of Financial Policy and Assistance (OFPA) officials, and also met with bureau
financial management representatives to discuss their efforts to date. We reviewed pertinent

                                                 2
OMB Bulletin 97-01 Implementation Requires                                     Final Audit Report
Additional Efforts by the Department                                              September 1998

documentation related to OFM guidance provided to facilitate the Department’s efforts to
prepare consolidated financial statements. We also analyzed documents related to efforts by
individual bureaus to prepare the FY 1998 financial statements.

Our fieldwork was conducted from April 9, 1998, to May 29, 1998. On June 17, 1998, we met
with the Director for Financial Management and Deputy CFO and his staff to discuss our
concerns with the Department’s implementation of OMB Bulletin 97-01 and our
recommendations for improvement. On June 23, 1998, we forwarded to OFM issues and
concerns that had been identified in our discussions with individual bureaus on the
implementation of OMB Bulletin 97-01. We subsequently reviewed the Department of
Commerce Supplementary Guidance for FY 1998 Financial Statements issued on July 2, 1998.

We conducted our review in accordance with generally accepted government auditing standards.
As a limited scope audit, we did not test compliance with significant laws and regulations or
evaluate controls over computer generated data. The limited scope audit was performed under
the authority of the Inspector General Act of 1978, as amended, and Department Organization
Order 10-13, dated May 22, 1980, as amended.

FINDINGS

Additional Efforts Are Necessary for OMB Bulletin 97-01 Implementation

At the initiation of our review, the Department and bureaus were generally in the early stages of
implementing OMB Bulletin 97-01. Sufficient attention had not been provided to planning for
the challenges of implementing the bulletin, as the Department and its bureaus had generally
concentrated their efforts on the FY 1997 financial statements. We found that:

1.     Commerce bureaus were unclear on the preparation of the Statement of Net Cost.
2.     The Department had not provided comprehensive written guidance on the FY 1998
       statements to the bureaus.
3.     Some bureaus were uncertain about the Department’s request to prepare interim
       statements.
4.     Cost accounting systems and processes were not documented.

While OFM had taken steps to prepare bureaus for implementing the new form and content
guidelines, comprehensive training on the new accounting standards and reporting requirements
had not been received. Subsequent to our discussions with the bureaus and OFM, written
guidance was provided to the bureaus that addressed the Statement of Net Cost and interim
statements. Comprehensive training sessions on the bulletin and new accounting standards were
held in May and June of 1998. In the coming months, it is essential that OFM continue to work
with bureaus in the implementation of OMB Bulletin 97-01.

                                                3
OMB Bulletin 97-01 Implementation Requires                                     Final Audit Report
Additional Efforts by the Department                                              September 1998

Bureaus Are Unclear on Preparation of Statement of Net Cost

OMB Bulletin 97-01 requires that the Statement of Net Cost and related supporting schedules
classify revenue and cost information by suborganization or responsibility segments and, to the
extent practicable, within each classification by major programs. We found that individual
bureaus were unclear on what constitutes a responsibility segment and had been left on their own
to determine what should be reported as programs. This resulted in bureaus taking diverse
approaches to presenting cost data in the Statement of Net Cost, which may make preparation of
consolidated financial statements difficult.

The then Acting Chief Financial Officer and Assistant Secretary for Administration had
requested in a memorandum dated July 28, 1997, that each bureau provide a listing of the
responsibility segments against which the bureaus would track costs beginning in FY 1998;
however, no feedback on the appropriateness of responsibility segments was provided to the
bureaus. We identified bureaus that were struggling with defining or were improperly identifying
responsibility segments. Without specific guidance on how to identify programs in the Statement
of Net Cost, some bureaus planned to report strategic goals as programs, while other bureaus
planned to define programs differently (e.g., funding source).

In May 1998, the Deputy Chief Financial Officer issued preliminary guidance to bureaus on the
preparation of FY 1998 financial statements in a memorandum, Department of Commerce
Preliminary Guidance for FY 1998 Financial Statements. The guidance states that the major
programs and activities listed on the Statement of Net Cost should link directly to the entity’s
goals and objectives in the Department’s Strategic Plan. Most bureaus do not currently capture
financial data by strategic goal. If the Department had provided guidance on how it expected the
Statement of Net Cost to be prepared prior to FY 1998, bureaus could have made arrangements
to capture cost information in a manner to facilitate preparation of statements in accordance with
the Department-specified format. Many bureaus must now, well into FY 1998, develop an
approach to allocate costs by strategic goal.

Bureaus Are Unclear on the Preparation of Interim Financial Statements

The May 1998 guidance directs the bureaus to prepare six-month financial statements as of
March 31, 1998. The preparation of interim financial statements is a useful exercise as it will
provide hands-on experience needed for the successful implementation of the new bulletin. Prior
to the CFO Council meeting on April 22, 1998, some bureaus had not been informed of the
Department’s intention to prepare interim financial statements using financial data as of March
31, 1998. Even after the meeting, it was not clear what level of information was needed by the
Department to prepare consolidated interim statements. The first clear guidance on interim
statements came with the May 8, 1998, request by the Deputy Chief Financial Officer for
complete financial statements, with the exception of the overview, by July 15, 1998. OFM

                                                4
OMB Bulletin 97-01 Implementation Requires                                    Final Audit Report
Additional Efforts by the Department                                             September 1998

prepared consolidated financial statements based on this information. We are concerned that the
late date provides little time for the Department to address problems identified during the mock
financial statement process.

Cost Accounting Activities, Processes, and Procedures Were Not Well Documented

Our efforts to assess the implementation of the new reporting guidelines were made difficult by a
lack of available documentation. Bureaus generally did not have documented procedures on such
routine issues as allocation of overhead costs or how they plan to prepare the Statement of Net
Cost. Statement of Federal Financial Accounting Standard No. 4, Managerial Cost Accounting
Standards, states that all managerial cost accounting activities, processes, and procedures should
be documented by a manual, handbook, or guidebook of applicable accounting operations. This
need for well-documented cost accounting activities, processes, and procedures is necessitated by
the inadequate cost accounting systems within the Department.

RECENT OFM ACTIONS TO IMPLEMENT OMB BULLETIN 97-01

On June 17, 1998, we met with the Director for Financial Management and Deputy Chief
Financial Officer and his staff to discuss our concerns with the Department’s implementation of
OMB Bulletin 97-01. On June 23, 1998 we forwarded to OFM, issues and concerns that had
been identified in our discussions with individual bureaus on the implementation of OMB
Bulletin 97-01. On July 2, 1998, the Director for Financial Management and Deputy Chief
Financial Officer (CFO) issued the Department of Commerce Supplementary Guidance for
FY 1998 Financial Statements. On August 24, 1998, the Deputy CFO issued Documentation of
Cost Accounting Activities, Processes, and Procedures that Relate to the Statement of Net Cost.
On September 16, 1998, the Deputy CFO issued Department of Commerce Second Supplemental
Guidance for the FY 1998 Financial Statements. The supplemental guidance and the August 24,
1998 memorandum address many of our concerns and recommendations raised with OFM and
our recommendation regarding the documentation of cost accounting activities, processes, and
procedures. However, continued efforts are necessary to implement our remaining
recommendations.

With respect to specific issues we raised with OFM, the supplementary guidance issued on July
2, 1998 requires that all entities that collect non-exchange revenue for the General Fund of the
Treasury prepare a Statement of Custodial Activity that is audited; provides general guidance on
cost assignment for preparation of the Statement of Net Cost; defines responsibility segments and
discusses how bureaus should identify programs in the Statement of Net Cost; and reminds
bureaus of the importance to document their methodologies for cost assignment and allocation.
Also, bureaus are encouraged to discuss with OFM any concerns or questions they have
regarding the implementation of new accounting standards and departmental guidance (e.g., cost
allocation and identification of responsibility segments).

                                                5
OMB Bulletin 97-01 Implementation Requires                                      Final Audit Report
Additional Efforts by the Department                                               September 1998

The Deputy CFO’s August 24, 1998 memorandum serves as a reminder to bureaus on the
Department-specified format for the Statement of Net Cost and the need to document cost
accounting activities, processes, and procedures. We are aware and encouraged that OFM has
been interacting with the bureaus on OMB Bulletin 97-01 issues, including issuance of
comments on interim statements prepared by the bureaus.

The supplemental guidance issued by the Deputy CFO on September 16, 1998 provides
additional information to assist the bureaus in the form and content of their financial statements.
In this memorandum, the Deputy CFO provides updated guidance on such issues as financial
statement preparation and the consolidation process. The updated guidance is based on
discussions with OMB, Treasury, and the Federal Accounting Standards Advisory Board about
pending guidance.

While recently undertaken activities demonstrate OFM’s efforts to provide the leadership
essential to preparing consolidated financial statements, it is essential that OFM continue to
assist bureaus as needed. OFM must continue to work with the bureaus in order to ensure that
the financial information used to prepare the consolidated financial statements is complete,
reliable, and in the Department-specified format.

CONCLUSION

We believe that OFM must provide vigorous leadership if the Department is to successfully
implement OMB Bulletin 97-01. To ensure effective implementation of OMB Bulletin 97-01,
OFM should have provided training and guidance on the principal financial statements, and
requested interim financial statements prior to or shortly after the beginning of FY 1998. In
recent months, OFM has been demonstrating the leadership essential to preparing consolidated
financial statements. However, in our discussions with bureaus, we found a number of other
issues outstanding that still need to be addressed (e.g., how to allocate overhead costs, whether to
prepare a Statement of Custodial Activity, and how to handle deferred maintenance). OFM
needs to ensure that the bureaus fully understand OMB Bulletin 97-01 requirements and are
capable of providing the information in the departmental-specified format. This will require
constant dialogue between OFM and the bureaus. The Department must continue to meet with
individual bureaus on issues such as cost allocation for the Statement of Net Cost.




                                                 6
OMB Bulletin 97-01 Implementation Requires                                    Final Audit Report
Additional Efforts by the Department                                             September 1998

RECOMMENDATIONS

We recommend that the Chief Financial Officer and Assistant Secretary for Administration take
the necessary actions to ensure that:

1.     OFM immediately follows up with bureaus to determine how the bureaus plan to prepare
       the Statement of Net Cost and provide assistance as needed.

2.     OFM evaluates the interim financial statements for compliance with OMB Bulletin 97-01
       reporting requirements and the Department’s guidance. In addition, OFM should provide
       timely written feedback on the interim financial statements. The feedback should identify
       deficiencies in the information provided and direct bureaus to address concerns (e.g., cost
       allocation methodology) with auditors.

3.     The Deputy Chief Financial Officer issues a written memorandum to bureaus reminding
       them of the need for documenting cost accounting activities, processes, and procedures
       that relate to the preparation of the Statement of Net Cost. This should include selected
       methodologies for allocation of costs.




                                                7
OMB Bulletin 97-01 Implementation Requires                                     Final Audit Report
Additional Efforts by the Department                                              September 1998

DEPUTY CHIEF FINANCIAL OFFICER RESPONSE AND
OIG COMMENTS

In an August 24, 1998, memorandum, the Deputy CFO and Director for Financial Management
responded to our draft report stating that there was agreement on many of the observations in our
draft report and that they had addressed most of them. Also, the Deputy CFO stated that there
was general agreement with the recommendations and he plans to implement them. We are
pleased to learn that certain actions have already been undertaken and that there are plans to
implement our recommendations.

The Deputy CFO’s response requested that we make certain modifications to the report. A
summary of the suggested modifications along with our comments follows. A complete copy of
the Deputy CFOs response is attached.

The response requested that we indicate in our report that (1) other federal agencies are having
problems implementing OMB Bulletin 97-01, and that this is a complex and complicated issue
and (2) that form and content of the financial statements are an evolving subject for the entire
federal government. We have added language to the report to emphasize the complexities
surrounding OMB 97-01 implementation and to indicate that a revision to the bulletin is
expected in the near future. While we do not feel that we are in a position to characterize other
federal agency efforts relating to implementing OMB Bulletin 97-01, we modified our report to
acknowledge that other agencies are facing similar challenges on this issue.

The response requested that we delete from page 1, paragraph 2, the statement “The bureaus were
not provided with the Department of Commerce Preliminary Guidance for FY 1998 Financial
Statements until May 8, 1998." The Deputy CFO concluded that the statement misleads the
reader and cited several actions that had been taken to provide the bureaus with supplemental
information. While we reaffirm our finding that we do not feel that OFM provided timely
guidance on implementing the new form and content bulletin, we eliminated this particular
statement.

The response requested that we delete from page 3, paragraph 4, the statement “In addition, there
had been limited professional training on the new reporting requirements,” stating that OFM had
taken several steps to assure that the bureaus would be ready to carry out the new reporting and
underlying cost accounting required by OMB Bulletin 97-01. We modified our report to reflect
that OFM had taken steps to prepare the bureaus for implementing the new form and content
guidelines, but that comprehensive training on the new reporting and accounting requirements
was not received until May and June 1998.




                                                 8
OMB Bulletin 97-01 Implementation Requires                                    Final Audit Report
Additional Efforts by the Department                                             September 1998

The response requested that we modify the first of our three recommendations by eliminating the
second sentence in the first recommendation relating to OFM determining whether the bureaus
have developed reasonable approaches to the allocation of costs and to add the words “and
provides assistance as needed” to the first sentence in the recommendation. The Deputy CFO
stated that guidance has already been provided to bureaus and that the bureaus need to be
responsible for a reasonable approach for the allocation of costs. While we agree that bureaus
need to be responsible for establishing a reasonable approach for allocating costs, we feel it is
imperative that OFM continue to work with bureaus on issues such as cost allocation as they
arise. Due to the approach taken by the Department in its preparation of consolidated financial
statements, i.e., reliance on individual prepared financial statements, it is important that OFM
follow up with bureaus on important issues relating to financial statement preparation.




                                                9
